                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM




         An inquiry into an allegation of improper hiring practices revealed that the institution' did not
         have a financial disclosure and conflicts of interest policy that was in compliance with NSF
         requirements, despite certifications on its grant proposals to NSF. No substance to the allegation
         of an improper hiring practice was found.2 We reviewed the institution's conflict of interest
         policy and pointed out where it did not comply with NSF's policy. Consequently the Institution
         revised its proposed policy. The Board of the Institution adopted the final policy at its meeting
         on November 22,2004.~This policy appears to meet all requirements set out in NSF 02-15 1,
         Grant General Conditions, Section 5 10.

         Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
